No:
IN THE
SUPREME COURT OF THE UNITED STATES
DE'UNDRE TURNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, De'undre Turner, by and through undersigned counsel and pursuant to SUP. CT.
R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for a Writ of Certiorari filed
in the above-styled matter was sent in an envelope via third party commercial carrier for
delivery within three days, addressed to the Clerk of the Supreme Court of the United
States, on the 9th day of July, 2021, which is the time the petition for writ of
certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
July 9, 2021

By:

s/Anshu Budhrani
Anshu Budhrani
Assistant Federal Public Defender
150 West Flagler Street, Suite 1700
Miami, Florida 33130-1555
(305) 530-7000

